<html>
<title> - HEARING ON THE NOMINATION OF WILLIAM B. KILBRIDE TO BE A MEMBER OF THE BOARD OF DIRECTORS OF THE TENNESSEE VALLEY AUTHORITY</title>
<body><pre>[Senate Hearing 116-42]
[From the U.S. Government Publishing Office]





                                                         S. Hrg. 116-42
 
HEARING ON THE NOMINATION OF WILLIAM B. KILBRIDE TO BE A MEMBER OF THE 
          BOARD OF DIRECTORS OF THE TENNESSEE VALLEY AUTHORITY

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON CLEAN AIR 
                           AND NUCLEAR SAFETY

                                 of the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS

                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 11, 2019

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
  
  
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
 
 


        Available via the World Wide Web: http://www.govinfo.gov
        
        
        
                             ______
 
             U.S. GOVERNMENT PUBLISHING OFFICE 

 37-303 PDF             WASHINGTON : 2019       
        
        
        
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED SIXTEENTH CONGRESS
                             FIRST SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware, 
SHELLEY MOORE CAPITO, West Virginia      Ranking Member
KEVIN CRAMER, North Dakota           BENJAMIN L. CARDIN, Maryland
MIKE BRAUN, Indiana                  BERNARD SANDERS, Vermont
MIKE ROUNDS, South Dakota            SHELDON WHITEHOUSE, Rhode Island
DAN SULLIVAN, Alaska                 JEFF MERKLEY, Oregon
JOHN BOOZMAN, Arkansas               KIRSTEN GILLIBRAND, New York
ROGER WICKER, Mississippi            CORY A. BOOKER, New Jersey
RICHARD SHELBY, Alabama              EDWARD J. MARKEY, Massachusetts
JONI ERNST, Iowa                     TAMMY DUCKWORTH, Illinois
                                     CHRIS VAN HOLLEN, Maryland

              Richard M. Russell, Majority Staff Director
              Mary Frances Repko, Minority Staff Director
                              ----------                              

              Subcommittee on Clean Air and Nuclear Safety

                     MIKE BRAUN, Indiana, Chairman
JAMES M. INHOFE, Oklahoma            SHELDON WHITEHOUSE, Rhode Island, 
SHELLEY MOORE CAPITO, West Virginia      Ranking Member
KEVIN CRAMER, North Dakota           BENJAMIN L. CARDIN, Maryland
MIKE ROUNDS, South Dakota            BERNARD SANDERS, Vermont
DAN SULLIVAN, Alaska                 JEFF MERKLEY, Oregon
JOHN BOOZMAN, Arkansas               KIRSTEN GILLIBRAND, New York
ROGER WICKER, Mississippi            CORY A. BOOKER, New Jersey
JONI ERNST, Iowa                     EDWARD J. MARKEY, Massachusetts
JOHN BARRASSO, Wyoming (ex officio)  TAMMY DUCKWORTH, Illinois
                                     THOMAS R. CARPER, Delaware (ex 
                                         officio)
                                         
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             JUNE 11, 2019
                           OPENING STATEMENTS

Braun, Hon. Mike, U.S. Senator from the State of Indiana.........     1
Whitehouse, Hon. Sheldon, U.S. Senator from the State of Rhode 
  Island.........................................................     3
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware, 
  prepared statement.............................................    19

                                WITNESS

Kilbride, William B., nominated to be a member of the Board of 
  Directors of the Tennessee Valley Authority....................     4
    Prepared statement...........................................     7
    Responses to additional questions from:
        Senator Carper...........................................    11
        Senator Braun............................................    12

                          ADDITIONAL MATERIAL

Statement of support for Mr. Kilbride............................    23


HEARING ON THE NOMINATION OF WILLIAM B. KILBRIDE TO BE A MEMBER OF THE 
          BOARD OF DIRECTORS OF THE TENNESSEE VALLEY AUTHORITY

                              ----------                              


                         TUESDAY, JUNE 11, 2019

                               U.S. Senate,
         Committee on Environment and Public Works,
              Subcommittee on Clean Air and Nuclear Safety,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:30 p.m. in room 
406, Dirksen Senate Building, Hon. Mike Braun (Chairman of the 
Subcommittee) presiding.
    Present: Senators Braun, Whitehouse, Carper, and Rounds.

             OPENING STATEMENT OF HON. MIKE BRAUN, 
             U.S. SENATOR FROM THE STATE OF INDIANA

    Senator Braun. Good afternoon. It is 2:30 p.m. Thanks to 
everyone for being here.
    This hearing of the Clean Air and Nuclear Safety 
Subcommittee is called to order. Today, we will be considering 
the nomination of William B. Kilbride to be a member of the 
Board of Directors of the Tennessee Valley Authority.
    Mr. Kilbride, welcome to the Subcommittee.
    If confirmed as a member of the Board of Directors, you 
will be tasked with ensuring that the TVA's broad strategy 
goals and objectives are adequate for ratepayers in the region 
and that the TVA pursues an agenda that is in the best interest 
of the U.S.
    Unfortunately, due to scheduling concerns, Senator 
Alexander was not able to be here to introduce our witness. 
However, he has sent the Committee a very favorable statement 
in support of you. I ask unanimous consent to enter the 
statement into the record.
    Senator Whitehouse. Without objection.
    [The referenced information was not received at time of 
print.]
    Senator Braun. I am going to recognize myself for a brief 
opening statement and then Ranking Member Senator Whitehouse, 
for his opening statement.
    The Tennessee Valley Authority represents an important 
player in the Nation's electrical system. Its position as a 
Government owned utility provides unique challenges for the 
agency in fulfilling its somewhat conflicting mandates to 
ratepayers, recreationists, and industry.
    At the same time, the TVA is well positioned and required 
by statute to be a leader in innovation--I think that is 
important--and to be driving the leading edge of advanced 
technology deployment. Since the agency's creation in the 
1930s, at times it has successfully balanced these obligations. 
Through the 1950s, the TVA was a leader in developing 
hydropower across the Southeast with 29 conventional 
hydroelectric sites.
    Its investment provided not only clean sources of 
electricity, but also new recreational opportunities for the 
region. The results of these projects have been impressive. The 
U.S. energy industry is a global leader in emissions reduction 
and TVA is making serious contributions to that effort.
    Since 2005, TVA has reduced carbon dioxide emissions by 51 
percent. It has reduced sulfur dioxide emissions by 99 percent, 
and since 1997, nitrous oxide by 96 percent.
    TVA has also been an important leader in investing in 
nuclear technology. The agency currently operates three nuclear 
plants including Watts Bar, America's most recent commercial 
nuclear reactor.
    TVA is currently working closely with the Nuclear 
Regulatory Commission for an early site permit to build a small 
modular nuclear reactor in Oak Ridge, Tennessee. This project 
represents one of the first initiatives to commercialize the 
next generation of America's nuclear fleet, which I am hopeful 
will lead the way in reducing carbon even further. I am hopeful 
that TVA aggressively pursues this project.
    However, the agency has also faced significant challenges 
with fiscal management, information security, and transparency, 
which bring into question its ability to successfully fulfill 
its mandate to ratepayers. The agency has often struggled to 
rein in overhead resulting in higher than market costs for 
electric generation. This long-term challenge resulted in TVA 
issuing billions in debt in order to finance its obligations.
    In fact, a 2014 fiscal report by the Heritage Foundation 
noted that because of the TVA's high debt levels and low book 
equity, it may not be worth much more than its debt if it were 
sold on the private market, a place any entity never wants to 
get close to. In 2014, TVA began to address this issue, 
embarking on a 10-year debt reduction plan. At the time, TVA 
owed more than $26 billion to folks owning their debt, 
dangerously close to its statutory debt limit of $30 billion.
    The agency has done well thus far in keeping to its debt 
reduction plan, eliminating nearly $3 billion of that debt. 
However, in 2016, the GAO noted that the agency also maintained 
nearly $6 billion in unfunded pension liabilities, a challenge 
for many entities. TVA responded that it intends to eliminate 
these liabilities within 20 years.
    Mr. Kilbride, you have signed up for a tough job. If 
confirmed, you will be tasked with addressing these challenges. 
I believe you are well qualified for the task and look forward 
to hearing your testimony.
    Now I would like to recognize the Ranking Member, Senator 
Whitehouse, for his opening statement.

         OPENING STATEMENT OF HON. SHELDON WHITEHOUSE, 
          U.S. SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Whitehouse. Thank you, Chairman Braun, and welcome, 
Mr. Kilbride.
    The Tennessee Valley Authority was created in the midst of 
the Great Depression. It is now America's largest public 
utility, providing electricity to nearly 10 million people in 
Tennessee, Alabama, Mississippi, Kentucky, Georgia, North 
Carolina, and Virginia. That makes the TVA uniquely positioned 
to lead the development of American policies to support cheap 
and clean energy.
    Last Congress, this Subcommittee helped clear five new 
members onto the TVA board. Today, we hear from William 
Kilbride, a Chattanooga business executive nominated to fill 
the final board vacancy. I appreciate very much the support of 
Senator Lamar Alexander.
    I want to make two points today. First, the Authority must 
remain a non-partisan and independent regulator. It recently 
voted to close two of its coal plants despite political 
pressure from the Trump administration and Kentucky Republicans 
to keep the plants open.
    TVA concluded that the two coal facilities were unreliable 
and inefficient, to use their words, and too expensive to 
repair or operate over time. Keeping them online would increase 
costs for consumers and increase pollution in our atmosphere.
    It was refreshing to see a regulatory agency guided by 
facts and the good of its consumers rather than political 
pressures. I hope to hear from Mr. Kilbride today a strong 
commitment that his regulatory decisions will focus on what is 
best for his consumers.
    Second, given the Authority's history and unique public 
charter, it should take particular care to remain independent 
of the fossil fuel industry's anti-climate grip. I was 
disappointed to learn that the Tennessee Valley Authority paid 
something called the Utility Air Regulatory Group nearly $7 
million in membership fees since 2001. The so-called Utility 
Air Regulatory Group was a secret industry coalition that spent 
years attacking clean air regulations.
    EPA Air Office Chief Bill Wehrum, sadly, a long-time fossil 
fuel lawyer, played a key role in this group. Thanks to 
congressional oversight, the group's activities were exposed, 
and its member utilities quickly sought to distance themselves 
from this public relations headache. The Utility Air Regulatory 
Group was disbanded.
    Mr. Kilbride, today I want to hear that you will work to 
ensure that the Authority will not fall victim to the fossil 
fuel industry's longstanding political campaigns against 
climate action and clean air regulations in Congress, at the 
Executive agencies, and in the courts. There are many benign 
sounding trade associations like the U.S. Chamber of Commerce 
and the National Association of Manufacturers that I think, at 
the behest of the fossil fuel industry and with its secret 
funding, devote millions of dollars to opposing sound energy 
policies. The Authority should not be a member of any such 
groups while they continue to engage in this kind of 
misbehavior.
    The push toward clean, cheap energy requires new, 
independent thinking. As the largest public utility, the 
Authority can and should lead the way. Regulators are there to 
ensure that prices are fair for consumers and rules are not 
compromised for special interests.
    I look forward to hearing from the witness.
    I will say that there has been some happy talk out of 
groups like the National Association of Manufacturers and the 
U.S. Chamber of Commerce claiming that they don't oppose 
climate action and in fact, that inaction is not an option. And 
there has been happy talk out of the CEO suites of the big 
fossil fuel corporations saying they do not deny that climate 
change is real and that their product is causing it and that a 
price on carbon is necessary for the solution.
    The extent to which that is just happy talk or actual 
corporate policy remains yet to be seen. So far, from my 
position on the receiving end of their political efforts, I see 
no sign that those statements have filtered through to action.
    But I am willing to work with them to try to make sure they 
actually do take action consistent with their newly stated 
views. But I do think it is a significant signal that they at 
least feel the obligation to say those things even if they feel 
no obligation to live by what they have said.
    Thank you, Chairman.
    Senator Braun. Thank you, Senator Whitehouse.
    Mr. Kilbride, I will now recognize you for 5 minutes for 
your opening statement and recognition of any family or friends 
that you may have with you. I want to remind you that your full 
written testimony will be part of the record. I look forward to 
your testimony.

 STATEMENT OF WILLIAM B. KILBRIDE, NOMINATED TO BE A MEMBER OF 
    THE BOARD OF DIRECTORS OF THE TENNESSEE VALLEY AUTHORITY

    Mr. Kilbride. Chairman Braun and Ranking Member Whitehouse, 
thank you for the opportunity to appear before you today. I am 
honored to have been nominated by President Trump to serve on 
the Tennessee Valley Authority Board of Directors.
    With me today is my wife, Mary Kilbride, and two of my 
Washington based nieces, Elizabeth and Laura Kilbride. This is 
all part of their continuing education in democracy.
    I would also like to thank Senator Lamar Alexander, Senator 
Marsha Blackburn, and former Senator Bob Corker for their 
support of my nomination and their confidence in my ability to 
serve as a member of the Tennessee Valley Authority Board of 
Directors.
    I began my career in financial services in New York in 
positions largely centered on matters of finance, corporate 
planning, and corporate technology, before taking an executive 
position at Mohawk Industries based in northwest Georgia, 
Mohawk being one of the largest manufacturers and employers in 
the southeastern United States.
    My family and I have been in Chattanooga then, ever since 
this move in 1992. In these years, I have intimately learned a 
great deal about the area, its residents, and their needs.
    With Mohawk, I learned personally about the importance of 
low cost and reliable energy in large scale manufacturing 
businesses. Competing in a global economy requires companies to 
locate and create jobs in areas where they can function most 
efficiently and most cost effectively.
    At a point in time, I was asked by Mohawk to serve as their 
first Global Chief Sustainability Officer for that company. 
This was a new field for me, but I began to learn more about 
corporate and community sustainability responsibilities, and 
grew to be very invested in this role.
    Mohawk's innovative thinking led it to begin a program that 
has grown to reclaim more than 3 billion plastic bottles, water 
bottles, soda bottles, each year and repurpose them into 
recyclable polyester fibers that could simultaneously increase 
profits for the company while decreasing adverse environmental 
impacts of plastic bottles in landfills across the country. 
Since 1999 when we began that, Mohawk has diverted over 30 
billion bottles from landfills.
    After retiring from Mohawk in 2014, I accepted the position 
as president of the Chattanooga Area Chamber of Commerce, 
where, as the name implies, I worked with counterparts across 
Tennessee, as well as in Georgia and Alabama to entice and 
attract businesses to grow or locate in that region. The 
purpose of that work was to add jobs to our communities and 
strengthen the economic bases of the region.
    I will mention that one critical initiative, which came 
from our efforts at the Chamber to grow the economic base, was 
the undisputed importance of focusing on work force readiness 
of our older work force and youth and aligning our community 
leaders, our educators, and our businesses in this goal. While 
I have completed my service at the Chamber of Commerce, I 
continue to work with companies, non-profit organizations, two 
local universities, and community leaders in each of those 
critical endeavors.
    I have served on boards--both public and private--have 
assisted management in developing plans for their future by 
serving in advisory capacities hoping to contribute to their 
base of experience. This experience, coupled with my own 
involvement in the executive side working with a corporate 
board on the other side, has provided me valuable knowledge of 
the value of this structure and efficient ways to operate in 
the appropriate world of corporate governance.
    I would also like to mention that in my free time over the 
years and since again retiring from the Chamber, a primary 
pastime of mine, and sometimes my wife's, has been traveling 
the Tennessee River, over 300 miles every year, on the water. 
This has given me great appreciation for the importance of the 
waterways and surrounding geography to the residents and the 
visitors of the Valley as well as the environmental 
responsibility to protect such a precious asset.
    I mention these segments of my background to say that my 
careers, together with the interests and the passions that I 
have, align with the mission of the Tennessee Valley Authority. 
The production of low cost, reliable power, participation in 
economic development of this region, and the environmental 
sustainability of the Tennessee Valley continue to be as 
important--and in many ways even more important--than they were 
in 1933. If confirmed, I would readily take on the task of 
continuing those vital objectives into the 21st century 
further, working with the rest of the TVA Board and its 
management team.
    Thank you very much for allowing me to come before the 
Committee today, and I look forward to responding to your 
questions.
    [The prepared statement of Mr. Kilbride follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    
    Senator Braun. Thank you.
    Before we take questions from members on the Subcommittee, 
I have to ask the following questions which we ask of all 
nominees on behalf of the Committee.
    Do you agree, if confirmed, to appear before this Committee 
or designated members of this Committee and other appropriate 
committees of the Congress and provide information subject to 
the appropriate and necessary security protections with respect 
to your responsibilities?
    Mr. Kilbride. Yes, absolutely.
    Senator Braun. Do you agree to ensure that testimony, 
briefings, documents in electronic and other forms of 
information will be provided to this Committee and its staff 
and other appropriate committees of jurisdiction in a timely 
manner?
    Mr. Kilbride. Yes, I do.
    Senator Braun. Do you know of any matters which you may or 
may not have disclosed that might place you in any kind of 
conflict of interest if you are confirmed?
    Mr. Kilbride. No, I don't.
    Senator Braun. I appreciate those responses.
    I will begin by recognizing myself for 5 minutes of 
questions.
    The Knoxville News reported last week that the TVA began a 
restructuring of its Whistleblower Protection Program. TVA has 
issued a statement noting that it is simply bringing these 
programs in-house. The workers who were let go are alleging 
that this was done in bad faith.
    I ask unanimous consent to insert the Knoxville News 
article into the record.
    Senator Whitehouse. Without objection.
    [The referenced information was not received at time of 
print.]
    Senator Braun. I recently visited the Cook Nuclear Power 
Plant in Michigan and was impressed with the safety features 
that surrounded that operation. However, in these environments, 
it is critical that adequate procedures be in place so that 
workers can feel comfortable reporting safety concerns.
    Do you agree, and do you want to comment any further on 
that?
    Mr. Kilbride. I firmly believe that one of the primary 
obligations of any employer is that of the safety and well 
being of the work force, without question. I have felt that way 
for a long time.
    I have read exactly what you have quoted from. That is, at 
this point, the extent of my knowledge, But having said what I 
have said, it would be critically important for me for what I 
have just said that should you choose to approve my nomination, 
to be completely comfortable as a board member of the TVA that 
they are in synch with me on this issue.
    Now, as to whistleblowers, if people are your most 
important asset in a business, and you have determined 
appropriately to put in place a whistleblower structure, you 
have to honor that. You owe it to the employees to listen to 
what they have to say. You have asked them to do this. And so I 
would be curious to know, ultimately be it your wish, to 
understand this and dig into it and make myself comfortable 
that either, wait a second, there is always more to the story, 
or this wasn't the way I would have preferred to see it 
handled, and let's talk about it some more.
    Senator Braun. Thirty-seven years as a CEO, I always 
thought that was like free consulting when you would have 
someone from your own company come up and freely be willing to 
tell you what needs to be improved. We don't know the outcome 
of this case particularly. It sounds like you would commit to 
taking the issue of whistleblower protections seriously.
    Mr. Kilbride. Absolutely.
    Senator Braun. I think in order for the U.S. to have a 
successful nuclear industry, especially in advanced 
technologies and with the history of nuclear energy up to this 
date, and to protect billions of dollars of investment in this 
technology, we must not risk any actions that would erode 
public confidence in safety. This Subcommittee takes this issue 
very seriously. I appreciate your response.
    TVA has a statutory mandate to be a national leader in 
technological innovation. How do you see TVA fulfilling this 
mandate? One area that you might talk about of particular 
interest to me is nuclear technology, advanced. Just this last 
week the Subcommittee held a hearing examining ways Congress 
can further support developments in advanced nuclear here at 
home.
    I understand that the TVA has made significant investments 
in nuclear technology. You currently have three plants: Browns 
Ferry, Sequoyah, and Watts Bar. Further, TVA is currently 
working on a project with the Department of Energy to develop a 
small module reactor near Oak Ridge, Tennessee, which I think 
is at the leading edge.
    Do you think that TVA has an obligation to continue leading 
the energy sector in making these investments?
    Mr. Kilbride. I absolutely do. In fact, I am going to 
expand on your question just a little bit, winging off the word 
technology that you used.
    I think there are many areas in the operations of the 
Tennessee Valley Authority where technology should be in the 
first sentence of mission, whether it is in things like grid 
security, if it is in things like industry standards, if it is 
in things the technology around nuclear or any of their other 
power sources.
    The 1933 Act, the TVA Act, challenged TVA to be a leader in 
technology, and it did not limit that set of instructions. So I 
take that very broadly, and I think there are many areas within 
the organization where a board member--where this board member, 
should that be--would want to see evidence that this is world 
class, world leading. I think if done right, we could serve as 
an example and help others with some of those findings.
    Senator Braun. Thank you.
    Senator Whitehouse.
    Senator Whitehouse. Thank you, Chairman.
    Mr. Kilbride, as I mentioned in my opening remarks, I am 
interested in hearing from you that in the discharge of your 
duties, your regulatory decisions will be based on what is best 
for the consumers you serve and not other considerations.
    Mr. Kilbride. Absolutely. I do not know how to offer proof 
to that other than to give you my word and tell you that is the 
way I operate.
    Senator Whitehouse. Absolutely is good enough for me.
    We all live in an environment in which the fossil fuel 
industry has put an enormous amount of effort into trying to 
manipulate politics, regulatory proceedings, and Congress into 
trying to protect something they very much want to protect, 
which is their ability to pollute massive amounts of carbon 
dioxide into the atmosphere for free, a super deal, if you can 
get it, and if everybody else has to pick up the cost.
    I am hoping that, as a TVA member, you will not be a party 
to that kind of an effort and will call balls and strikes, as 
you see them, right down the middle.
    Mr. Kilbride. Absolutely.
    Senator Whitehouse. One of the areas in which we have 
shown, I think, considerable bipartisan success has been on the 
question of carbon capture. We passed a carbon capture 
utilization and sequestration bill, believe it or not, in the 
Senate by unanimous consent--everybody.
    It was a great piece of legislation, but what was 
significant about it was that it added tax credits for captured 
carbon. The reason that was important is because as long as it 
is free to pollute, it is really hard to generate a market 
signal, a revenue proposition for carbon capture, for remedies 
to the carbon dioxide pollution problem we have.
    So I am interested in your thoughts on where carbon capture 
might fit into your role, your portfolio of concerns at TVA. 
Specifically, because you run nuclear facilities, one of the 
things we have seen is perfectly safely operating nuclear 
facilities having to close down because natural gas is cheaper.
    So you build a new natural gas polluting power plant and 
the only reason you are doing that is economics. The only 
reason the economics make sense is because the nuclear plant 
isn't getting the value of the carbon free nature of its power.
    You put the two side by side, and it is an unfair 
competition, because you have clean nuclear power here, you 
have polluting natural gas here, and they pay no difference for 
it. So the nuclear plant ends up not being able to compete.
    Several States have actually stepped in and said, we are 
going to support our nuclear fleet with a payment to reflect 
the carbon free nature of the power, the benefit of it, if you 
will, very like what we did with the carbon capture bill, to 
give a benefit to that.
    I am just wondering, as you think about that suite of 
issues, the carbon free nature of nuclear emissions, the 
difficulty of trying to have carbon capture succeed, as the 
technology denotes, is an important one, and the general 
proposition that if you pollute, you should pay for it, how 
does that all work together in your view in the future of TVA?
    Mr. Kilbride. I understand the question completely.
    Senator Whitehouse. That is impressive because that was a 
long and contorted question, so I appreciate that.
    Mr. Kilbride. To give you an answer, a couple of things go 
through my mind.
    No. 1, I would want the financial experts at TVA--at an 
appropriate time, should I get there--to translate that into a 
spreadsheet that I can look at and understand.
    What I think is going to impact TVA from the top of the 
house is that when you have the diverse composition of the 
power generating plants, you would have a formula for nuclear 
carbon capture, you might have a formula for solar, and so on. 
They don't have to be normalized. I am not sure, from an 
investment perspective, without even getting into the tax 
implications, whether they should be normalized, but they will 
be different.
    Unless you went into TVA and said, we are going to rank 
your five or six different power sources, and here are your 
scores for each one, so let's all agree we are going to keep 
these three and get rid of these other two, or come back to me 
and tell me why there should be tax legislation that will 
subsidize my keeping two that don't perform on paper the way 
the other two do.
    I am not getting you where you want, but I look forward to 
studying that and having the experts explain all the 
ramifications of that in this particular footprint, when and if 
I have the chance as soonest to do that.
    Senator Whitehouse. Fair enough.
    Thank you.
    Senator Braun. Senator Carper.
    Senator Carper. Thanks, Mr. Chairman.
    To our Ranking Member, I was here too late to catch maybe 
some of your opening comments.
    There are three women sitting over your right shoulder, one 
in a white outfit with a green blouse underneath and there are 
two older women sitting next to her. I was wondering who is the 
one sitting on your far right in black. Who is that?
    [Laughter.]
    Mr. Kilbride. The one on my far right is not my wife. The 
one on my nearest right is my wife. The two stunning young 
ladies sitting on my right are both my nieces, Laura and 
Elizabeth Kilbride.
    Senator Carper. I just wanted you to know on your answers 
to the questions so far, both of your nieces are rolling their 
eyes. Not really. Your wife is rolling her eyes; how did he get 
into this?
    [Laughter.]
    Mr. Kilbride. I have no problem if you want to repeat the 
question.
    [Laughter.]
    Senator Carper. We are happy you are all here. It is great 
to see Laura. You can be very proud of her and the work that 
she does.
    I want to build on Senator Braun's question a bit earlier 
about establishing a culture of safety at TVA or strengthening 
the culture of safety at TVA.
    I want to talk about TVA's handling of something that 
occurred about 11 years ago. That was the Kingston coal ash 
spill which dumped, I am told, about 7 million tons of coal ash 
into the local community and the waterways. I believe that was 
in 2008. According to TVA's reporting, this coal ash contained, 
you may recall, high levels of toxic heavy metals that are 
known to cause cancer, liver damage, neurological 
complications, among other health problems.
    Last year, a Federal jury in the U.S. District Court for 
the Eastern District of Tennessee found that the contractor 
used by TVA to clean up the Kingston coal ash spill--I think it 
is called Jacobs Engineering Corporation or Group--apparently 
did not adhere to worker safety or health requirements, 
potentially causing sickness and death.
    Although TVA was not on trial, there were troubling 
testimonies from workers that called into question TVA's 
conduct during and after the cleanup efforts. The court's 
decision allows families of the workers affected to seek 
compensation for medical treatment and damages.
    Just last month, three east Tennessee municipalities near 
the Kingston plant filed a lawsuit against TVA and Jacobs 
Engineering accusing both of continuously misleading the public 
about the danger of the coal ash spill. To date, there are 
reports that over 40 Jacobs Engineering Group workers have 
died--have died--since working on the Kingston coal ash cleanup 
efforts, and hundreds of others are sick.
    If confirmed, will you commit to ensuring that TVA is a 
good actor and is transparent with the employees and families 
that are impacted by this issue?
    Mr. Kilbride. Yes, I will.
    Senator Carper. As a follow up question, do you agree that 
coal ash can be dangerous to health if ingested or inhaled?
    Mr. Kilbride. Yes, I do.
    Senator Carper. Finally, would you allow a member of your 
family to clean up coal ash without a mask or proper safety 
gear?
    Mr. Kilbride. Absolutely not.
    Senator Carper. Thank you.
    The Utility Air Regulatory Group was an influential group 
of electric utilities and trade associations that fought EPA's 
Clean Air Act rules. It has been reported that TVA has spent 
over $7 million in ratepayer dollars to fund this organization. 
Again, the organization is called the Utility Air Regulatory 
Group; over $7 million in taxpayer dollars to fund this 
organization since 2001.
    There have also been recent reports that TVA may have 
agreed to pay the legal bills of the troubled engineering firm 
involved in the Kingston coal ash spill, which could cost 
millions of dollars as well. I am troubled to see TVA rate 
dollars going to support lawsuits against public health 
protections in the Valley.
    My question is, as a current ratepayer, what do you think 
about your dollars going toward litigation rather than 
investments in upgrading technology, infrastructure upkeep, the 
work force, and outstanding debt? How do you feel?
    Mr. Kilbride. I don't, as a ratepayer, like being in that 
position. Obviously, it is not a good use of the money I worked 
hard to make. At the end of the day, somebody is going to pay. 
I want to answer a couple of parts of that.
    In his introductory statement, Senator Whitehouse mentioned 
two organizations that he feels invest in many different things 
that dues paying members might or might not agree with. I have 
been on our side of both of those organizations that he 
mentioned, whether through dues or something else and all of a 
sudden, they were pursuing, each of them were pursuing 
something that not only did my organization--forget me 
personally--my organization not believe in, not condone, not 
want to be any part of. It happens. This is the way more and 
more things are schemed up to work.
    I think it is important to know who you are doing business 
with. It means you have to crawl through all these 
organizations--if not all of them, most of them--unless you are 
dealing perhaps with the Boy Scouts, to determine what it is 
they are doing and have you changed the stripes on that zebra. 
It is a challenge, but it is work that has to happen. I have 
been in this position in past lives, so I know exactly what you 
are talking about.
    Senator Carper. My time has expired. I just want to get to 
this question.
    If you end up in the position for which you have been 
nominated, if you should be confirmed, what would you do, if 
anything, differently?
    Mr. Kilbride. I think that the board should have a clear 
policy as to when you are contributing. I don't know yet if I 
care if it is $100 or $7 million. Your name is going to be 
attached to it probably. But there should be a policy at the 
board level that says this is what we are looking for, and this 
is what, at all cost, we want to absolutely avoid. That is how 
I feel.
    Senator Carper. Thank you so much. I will probably have 
some follow up questions for the record.
    Thank you.
    [The prepared statement of Senator Carper follows:]

                  Statement of Hon. Thomas R. Carper, 
                U.S. Senator from the State of Delaware

    For some time, I have encouraged Tennessee Valley Authority 
(TVA) to be an industry leader, not a laggard, especially when 
it comes to clean energy and energy efficiency.
    In recent years, TVA has made decisions that are in line 
with the actions that many utilities are taking across the 
country to boost their bottom lines and reduce their carbon 
footprint by phasing out uneconomic, heavier polluting coal 
fired power plants and transitioning to cleaner forms of 
energy. These decisions--which have been based on economics, 
science, and adherence to TVA's mission--demonstrate that 
utilities can do well by doing what is good, and in particular, 
good for our environment.
    Unfortunately, however, there have been reports that TVA 
may not have been a good actor when it comes to worker safety 
and whistleblower protections. That is unacceptable. Being an 
industry leader means embracing and enforcing a culture of 
safety across the workforce. It also means being a good 
neighbor and protecting the community from potential hazards.
    Today, I am interested in hearing Mr. Kilbride's views on 
these issues and better understanding what he will do, if 
confirmed, to ensure TVA is the gold standard of utilities.
    Thanks very much.

    Senator Braun. Today, more and more utilities are exploring 
ways to implement renewable, clean power generation, an effort 
I greatly applaud. American innovation has brought the cost of 
many of these technologies down to a level where they are 
competitive in the marketplace.
    TVA, in particular, has made impressive strides in cleaning 
up emissions from its generation. As noted earlier, carbon 
dioxide has been reduced by 51 percent since 2005, sulfur 
dioxide by 99 percent since 1977, and nitrous oxide 96 percent 
since 1995.
    Unfortunately, we cannot run the grid on wind and solar 
alone, as they are not reliable producers of baseload power. As 
the winter storms proved recently, we need to ensure the grid 
is able to serve demand during all conditions. As utilities 
look toward modernizing their fleets, it is critical that we 
keep this in mind.
    Can you briefly discuss the importance of being able to 
generate reliable, cost effective, baseload power? Do you see 
TVA being able to provide that type of reliability without 
using at least some generation of coal or natural gas?
    Mr. Kilbride. I have several responses to all of that.
    TVA produces today the power that it sees needed for the 
foreseeable future measured in years not in days or weeks. So 
the fleet, as they call it, is what it needs to be. As we know, 
those assets are composed of all of the different generators 
that you mentioned, wind, solar, gas, coal, and nuclear.
    Bringing the Watts Bar 2 online in 2016 after a long time 
of construction, because it takes a long time, that provided 
the additional nuclear power, the additional power, that would 
take up any spikes in the interim.
    Coal for TVA now is under 20 percent of the composition, 
and hydro is under 10 percent. We see, in the storms we had in 
the first quarter of this year, the incredible job the TVA did 
in managing the waterway in east Tennessee so that a good part 
of my town and Chattanooga wasn't under water as it has been in 
the past.
    I think it is important to recognize the work that they do 
there. We get used to it in Chattanooga. We almost take it for 
granted in Chattanooga, but I think it is important to look at 
what is happening there and the effective job that they do.
    Technology in each of those, and we talked about technology 
here at the outset. I am not sure, as a layman, what additional 
technology can be engaged in hydropower. I think solar is a 
fertile field. Wind power might be. Tennessee doesn't lend 
itself well to wind power; solar is a different story. TVA has 
many pilots going on in that area.
    To have a coal plant that could also switch over to gas is 
a good thing. Gas is cheap right now. Maybe it will stay that 
way, but maybe it won't. So as they balance this portfolio--not 
on a spreadsheet on Monday mornings, but almost hour to hour in 
their operating center--I think that where technology comes 
into play in that management is significant.
    Again, they should be able and free to invest in that every 
way they possibly can and find the great partners as I 
mentioned earlier. Oak Ridge is right up the road. TVA has a 
board member who is the deputy director of Oak Ridge. I do not 
even need a phone number if this should happen.
    I do not know if that answers your question. Ideas that 
looked good sometimes in the early 1940s, by the time it is 50, 
60, or 70 years later, maybe they do not look quite so good. I 
think the goal here is not so much to be on the bleeding edge 
but to be on the leading edge with these so that we don't get 
caught up down the road saying, gee, we should never have done 
that. If that addresses your issue.
    Senator Braun. I think that my concern is as we need to 
speed toward carbon free emissions for electric generation, I 
see most of what would do it reliably as a bird in the bush and 
not in the hand. To me, it looks like advanced nuclear 
technology could be the scalable thing that might work in a 
reasonable amount of time. I know TVA has typical conventional 
plants, and I didn't know how much you have paid attention. 
Basically, I just learned about it myself recently and how 
close that is to becoming something that might be the closest 
thing to a universal solution, if it can get beyond the stigma 
of what nuclear energy brings to power generation anyway.
    Mr. Kilbride. I believe because of TVA's investment in 
there that they approached that prudently. Therefore, there is 
a strong belief in their mind.
    Senator Braun. I would just ask you, as a board member, to 
push as hard as you can, because to me, if we are going to 
quickly get to carbon free, it might rest there.
    Mr. Kilbride. I agree with you. I agree with you.
    Senator Braun. Senator Whitehouse, do you have any further 
questions?
    Senator Whitehouse. I have two quick points before we wrap 
up.
    The first is that the so-called U.S. Chamber of Commerce, 
the organization whose behavior I object to, has no relation 
whatsoever to local chambers of commerce like the Chattanooga 
Chamber of Commerce. I have multiple chambers of commerce in my 
home State of Rhode Island. I work with them. I get along with 
them. They often support me. They are honorable, community 
minded and very public spirited organizations for whom I have a 
lot of respect.
    I appreciate your work for the Chattanooga Area Chamber of 
Commerce. I just wanted to make sure that I drew a very clear 
distinction between the local chambers of commerce, which I 
think serve their communities very honorably and well. I 
appreciate your service on it.
    I suppose back in the day, the U.S. Chamber of Commerce was 
like that, but at some point, I think the fossil fuel industry, 
through secret money, got in there, and the next thing you 
know, the nominal member corporations are chumps out front 
while the decisions being made are being made in a back room 
with people whose funding is not even made public.
    We will find out more about that before it is all over, but 
I do want to make that distinction. I appreciate these local 
chambers of commerce, and I am grateful to you for your service 
to yours. I draw no aspersions on any of the local ones from my 
experience.
    Mr. Kilbride. Thank you. That was my understanding.
    Senator Whitehouse. The second thing is I hope you do not 
feel bad that there were not many Senators who attended.
    Mr. Kilbride. I am honored.
    Senator Whitehouse. I think you should be. My experience at 
these hearings is that the smaller the attendance, the greater 
the likelihood of smooth confirmation. Congratulations.
    Mr. Kilbride. I am honored.
    Senator Braun. Thank you, Senator Whitehouse.
    In the short time I have been here, I have noticed that 
very seldom is there a full house in a Committee meeting. I am 
on the Budget Committee, and I think there are 22 of us. In 
what I think should be the most important committee in the 
Senate, about five or six of us show up. I am there every time.
    I think we have concluded the questions. Anyone here can 
submit a follow up question for the record by 5 p.m. on 
Wednesday, June 12.
    Mr. Kilbride, please respond to those written questions by 
5 p.m. on Monday, June 17, if there are any.
    I want to thank you for your willingness to appear before 
this Subcommittee today. Thank you very much.
    Mr. Kilbride. Thank you.
    Senator Braun. The hearing is adjourned.
    [Whereupon, at 3:15 p.m., the Subcommittee was adjourned.]
    [Additional material submitted for the record follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
                                 <all>
</pre></body></html>
